FINNEGAN

FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP
I

WWW.FINN EGAN. COM

CHARLES E. LIPSEY
571.203.2755
charles.lipsey@finnegan.com

March 11, 2020
Via Electronic Filing and Hand Delivery
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

CJ Cheiljedang et al. v. Int’l Trade Comm’n et al., No. 19-1062

Dear Mr. Harris:
I am counsel for Respondents Ajinomoto Co., Inc. and Ajinomoto Animal Nutrition North
America, Inc. (“Ajinomoto”) in the above-captioned matter. Pursuant to Rule 30.4, I am writing
to request a 30-day extension of time to file Ajinomoto’s brief in opposition to certiorari.
The petition for certiorari was docketed on February 26, 2020. The deadline for Ajinomoto
to oppose the petition is March 27, 2020. If the requested extension of time is granted, Ajinomoto’s
brief in opposition will be due on April 27, 2020. Counsel for Petitioners CJ CheilJedang Corp.,
CJ America, Inc., PT. CheilJedang Indonesia, and for Respondent International Trade
Commission, have consented to this request for extension of time.
Ajinomoto respectfully requests this extension of time due to other pressing matters.
Specifically, counsel for Ajinomoto is involved in intensive fact and expert discovery on several
ongoing actions and has dispositive briefing in other matters due in the coming weeks. The
requested extension of time will ensure sufficient time to fully analyze and respond to arguments
raised in the petition for certiorari in this case.
Thank you in advance for your consideration of this matter.
Sincerely,
/s/ Charles E. Lipsey
Charles E. Lipsey
Counsel for Respondent
Ajinomoto Co., Inc., Ajinomoto Animal
Nutrition North America, Inc.

TWO FREEDOM PLAZA, 11955 FREEDOM DRIVE | RESTON, VA 20190-5675
PHONE: 571.203.2700 | FAX: 202.408.4400

(Page 2)
cc (via email and overnight mail):
Douglas Harry Hallward-Driemeier
Ropes & Gray
2099 Pennsylvania Avenue, NW
Washington, DC 20006-6807
douglas.hallward-driemeier@ropesgray.com
Counsel for Petitioner, CJ CheilJedang
Corp., CJ America, Inc., PT., CheilJedang
Indonesia

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Supreme CtBriefs@USDOJ.gov
Counsel for Respondent, International Trade
Commission

FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP

